     Management Advisory Report



    Single Audit of the State of
Tennessee for the Fiscal Year Ended
           June 30, 2012




        A-77-14-00008 | May 2014
Single Audit of the State of Tennessee for the Fiscal Year
Ended June 30, 2012
A-77-14-00008
May 2014                                                                 Office of Audit Report Summary

Objective                                Findings

To report internal control weaknesses,   The single audit reported SSA was overcharged indirect costs for
noncompliance issues, and                the quarter ended December 31, 2011.
unallowable costs identified in the
single audit to the Social Security      In addition, the single audit reported DHS did not follow State
Administration (SSA) for resolution      information system security policies, which may result in an
action.                                  increased risk of fraudulent activity or loss of data.

Background                               Recommendations

The Tennessee Comptroller of the         We recommend that SSA ensure it received credit for the $4,449 in
Treasury conducted the single audit of   unallowable indirect costs.
the State of Tennessee. SSA is
responsible for resolving single audit   We made a recommendation to SSA in a prior report for corrective
findings related to its Disability       action on the information system security policy finding. We
Insurance program. The Department        confirmed that SSA had taken appropriate corrective action to
of Human Services (DHS) is the           address this finding. Therefore, we will not repeat the
Tennessee Disability Determination       recommendation.
Section’s (DDS) parent agency.
MEMORANDUM
Date:      May 20, 2014                                                             Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of Tennessee for the Fiscal Year Ended June 30, 2012 (A-77-14-00008)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of Tennessee for the Fiscal Year ended June 30, 2012. 1 Our objective was to report internal
           control weaknesses, noncompliance issues, and unallowable costs identified in the single audit to
           SSA for resolution action.

           The Tennessee Comptroller of the Treasury conducted the audit. The results of the desk review
           conducted by the Department of Health and Human Services (HHS) concluded that the audit met
           Federal requirements. In reporting the results of the single audit, we relied entirely on the
           internal control and compliance work performed by the Tennessee Comptroller of the Treasury
           and the reviews performed by HHS. We conducted our review in accordance with the Council
           of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection and
           Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The Tennessee Disability Determination Section (DDS) performs disability determinations under
           SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is reimbursed for
           100 percent of allowable costs. The Department of Human Services is the Tennessee DDS’
           parent agency.

           The single audit reported SSA was overcharged indirect costs for the quarter ended
           December 31, 2011. 2 The Tennessee Comptroller of the Treasury informed us that the amount
           overcharged was $4,449. The overcharge occurred due to errors in the cost allocation tables



           1
            State of Tennessee, Single Audit Report for the Year Ended June 30, 2012
           http://www.comptroller.tn.gov/repository/SA/2012_TN_Single_Audit.pdf (last viewed April 25, 2014).
           2
               Id. at finding 12-DHS-06.
Page 2 - Gary S. Hatcher

used to calculate indirect costs. The corrective action plan indicates DHS corrected the errors
and implemented a process to review the accuracy of future cost allocations.

We recommend that SSA ensure it received credit for the $4,449 in unallowable indirect costs.

In addition, the single audit reported DHS did not follow State information system security
policies, which may result in an increased risk of fraudulent activity or loss of data. 3 The
corrective action plan indicated that steps to address the issues identified were already underway.
We made a recommendation to SSA in a prior report for corrective action on this finding. 4 We
confirmed that SSA had taken appropriate corrective action to address this finding. Therefore,
we will not repeat the recommendation in this report.

The single audit also disclosed DHS did not properly review and approve Federal cash
drawdowns or ensure that cash management duties were properly segregated before requesting
funds. 5 This finding may impact DDS operations. I am bringing this matter to your attention as
it represents a potentially serious service delivery and financial control problem for the Agency.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802
or Shannon.Agee@ssa.gov.




                                                     Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




3
    Id. at finding 12-DHS-02.
4
 SSA OIG, Management Advisory Report, Single Audit of the State of Tennessee for the Fiscal Year Ended
June 30, 2011 (A-77-13-00010) May 2013.
5
    Id. at finding 12-DHS-13.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
